U.S. Department of Labor
Occupational Safety and Health Administration
Atlanta Regional Office
Sam Nunn Atlanta Federal Center
61 Forsyth Street. SW, Room 6T50
Atlanta, Georgia 30303
November 19,2018

©

%
&

5&
ie\

-32-

0

Ellerbee Express, LLC
Attn: Jamel Ellerbee, Owner
PO Box 37367
Raleigh, NC 27627

Re: Annett Holdings, Inc. dba TMCTransportation/Ellerbee/Case# 4-3750-19-017
DOT Number 87409
Dear Mr. Ellerbee:
This letter acknowledges receipt of the whistleblower complaint filed by you, Jamal Ellerbee
(Complainant) under the whistleblower provisions of the Surface Transportation Assistance Act
(STAA), 49 U.S.C. S3 1105, as amended by the implementing Recommendations of the 9/11
Commission Act of 2007, Pub. L. No. 110-53 on November 15,2018 against the Annett
Holdings, Inc. dba TMCTransportation (Respondent). In brief, you allege Respondent is
violating the Federal Bill of Lading Act.
Following an investigation by a duly-authorized investigator, the Secretary of Labor, acting
through his agent, the Regional Administrator for the Occupational Safety and Health
Administration (OSHA), Region IV, issues the following findings:
Secretary's Findings
Complainant would allege during his business actions with Respondent, Respondent is violating the
Federal Bill of Lading Act.
Respondent is a motor carrier/employer within the meaning of I U.S.C. and 49 U.S.C. S31105.
Respondent is engaged in interstate commerce by transporting products on the highways via
commercial motor vehicle; that is a vehicle with a gross weight rating of 10,001 pounds or more
designed to transport material. Respondent's corporate office is located in Des Moines,
Iowa
Complainant is not an employee within the meaning of 49 U.S.C. 91101. Complainant is not an
employee of Respondent. Complainant directly affected commercial motor vehicle safety, in that

47

he drove trucks over highways in commerce to haul various goods and products. Complainant is
located in Raleigh, North Carolina.
Complainant and Respondent are, therefore, not covered by STAA.
Under the STAA, Complainant is not considered an employee as STAA defines an employee as a
driver of a commercial vehicle, a mechanic, freight handler or an individual but not an employer.
This is employer verses employer, not employee verses employer.

Complainant would allege during the course of his business interactions with Respondent, Respondent
is violating the Federal Bill Of Lading Act. Violations of this Act are not considered protected under the
STAA and OSHA has no jurisdiction to investigate alleged violations of this Act.
The evidence gathered in this investigation does not support Complainant was retaliated
against for engaging in protected activity under the STAA.A reasonable cause to believe
Respondent retaliated against Complainant in violation of the STAA was not established. For
these reasons, Complainant has not produced a prima facie case under STAA, and the
complaint is hereby dismissed.
Respondent and Complainant have 30 calendar days from the receipt of these Findings to file
objections and to request a hearing before an Administrative Law Judge (AM). If no objections
are filed, these Findings will become final and not subject to court review.
Objections must be filed in writing with:
Chief Administrative Law Judge
USDOL-Office of Administrative Law Judges
800 K Street NW, suite 400 North
Washington, D.C. 20001-8002
PH: (202) 693-7300; Facsimile: (202) 693-7365
In addition, please be advised that the U.S. Department of Labor generally does not represent any party
in the hearing; rather, each party presents his or her own case. The hearing is an adversarial proceeding
before an Administrative Law Judge (ALJ) in which the parties are allowed an opportunity to present
their evidence de novo for the record. The ALJ who conducts the hearing will issue a decision based on
the evidence, arguments, and testimony presented by the parties. Review of the AB's decision may be
sought from the Administrative Review Board, to which the Secretary of Labor has delegated
responsibility for issuing final agency decisions under the S TAA.
A copy of this letter has been sent to the Chief Administrative Law Judge along with a copy of your
complaint. The rules and procedures for the handling of STAA cases can be found in Title 29, code of
Federal Regulations Part 1978, and may be obtained at www.osha.gov.
Sincerely,

48

U.S. Department of Labor

Office of Administrative Law Judges
11870 Merchants Walk - Suite 204
Newport News, VA 23606

©

%

(757) 591-5140
(757) 591-5150 (FAX)

Issue Date: 11 January 2019
CASE NO.:

2019-STA-00011

In the Matter of:
JAMEL ELLERBEE,

Complainant,
v.
ANNETT HOLDINGS, INC.
d/b/a TMC
TRANSPORTATION,
Respondent.

ORDER TO SHOW CAUSE
This matter purportedly arises under the employee-protection provisions of the Surface
Transportation Assistance Act, 49 U.S.C. § 31105 and the implementing regulations at 29 C.F.R.
Part 1978 ("STAA"). Complainant Jamel Ellerbee filed a complaint with the Occupational Safety
and Health Administration on November 15,2018 and the complaint was dismissed by the OSHA
Regional Administrator on November 19,2018, on several grounds, including (1) that Mr.
Ellerbee is not an employee of TMC Transportation; (2) that because Mr. Ellerbee is not an
employee, this matter is not covered under the STAA; (3) that the dispute recounted by Mr.
Ellerbee was between TMC and Ellerbee Transportation, Mr. Ellerbee's employer, and therefore
was a dispute between two companies rather than a dispute between Mr. Ellerbee and his
employer; and (4) Mr. Ellerbee characterized the issue as involving a violation of the Bill of
Lading Act, which is not protected by the STAA and therefore not within the jurisdiction of the
Department of Labor. Mr. Ellerbee objected to the OSHA determination and requested a hearing
before an administrative law judge. The case was docketed in this Office on December 19, 2018
and was assigned to me on January 10, 2019.

From a review of the materials forwarded by Mr. Ellerbee, it appears that he is an employee of
Ellerbee Express. His company contracted with TMC to haul a load for a customer. Specialty
Rolled Metals, picking it up on March 1, 2018. The Ellerbee Express driver picked up the load

49

and, after starting to drive, was stopped by the police and fined for having an overweight load.
In addition to the fine, Ellerbee Express incurred costs in redistributing the load to comply with
load limits, which led to a bitter business dispute between Ellerbee Express and TMC.

Discussion
The STAA provides:

(a)Prohibitions.—
(1) A person may not discharge an employee, or discipline or discriminate
against an employee regarding pay, terms, or privileges of employment,
because—
(A)

0)

the employee, or another person at the employee's
request, has filed a complaint or begun a proceeding related to a violation
of a commercial motor vehicle safety or security regulation, standard, or
order, or has testified or will testify in such a proceeding; or
(ii)
the person perceives that the employee has filed or is
about to file a complaint or has begun or is about to begin a proceeding
related to a
violation of a commercial motor vehicle safety or security
regulation, standard, or order;
(B)

the employee refuses to operate a vehicle because—
(i)
the operation violates a regulation, standard, or order of
the United States related to commercial motor vehicle safety, health, or
security; or
(ii)
the employee has a reasonable apprehension of serious
injury to the employee or the public because of the vehicle's hazardous
safety or security condition;
(C)
the employee accurately reports hours on duty pursuant to
chapter 315;
the employee cooperates, or the person perceives that the
(D)
employee is about to cooperate, with a safety or security investigation by the
Secretary of Transportation, the Secretary of Homeland Security, or the National
Transportation Safety Board; or
the employee furnishes, or the person perceives that the
(E)
employee is or is about to furnish, information to the Secretary of Transportation,
the Secretary of Homeland Security, the National Transportation Safety Board, or
any Federal, State, or local regulatory or law enforcement agency as to the facts
relating to any accident or incident resulting in injury or death to an individual or

50

damage to property occurring in connection with commercial motor vehicle
transportation.
49 U.S.C. § 31105; see 29 C.F.R. § 1978.102. "Employee," in turn, is defined as "a driver
of a commercial motor vehicle (including an independent contractor when personally
operating a commercial motor vehicle)..."

From the information before, it appears that Mr. Ellerbee cannot be considered an
employee of TMC, as he did not personally operate a commercial motor vehicle on
March 1, 2018. Furthermore, the information does not show that he personally engaged
in any of the protected activities listed above.
Finally, there is nothing in the file to show that Mr. Ellerbee, even if he can be
considered an "employee" who engaged in protected activities, suffered any adverse
employment action as a result. The documents in the file indicate that Ellerbee Express
may have suffered certain injuries, but do not indicate that Complainant himself
suffered an adverse employment action.

ORDER
Based on the foregoing, IT IS ORDERED that Complainant Jamel Ellerbee shall, not later
than February 8, 2019, show cause why this matter should not be dismissed because (1)
he did not engage in protected activity under the STAA; (2) he is not an "employee"
under the STAA; and/or (3) he did not suffer an adverse employment action as a result
of engaging in protected activity. Complainant may submit additional document
(without sending additional copies of documents already submitted) and argument in
support of his position.

IT IS FURTHER ORDERED that Respondent may, not later than February 22,2019,
respond to Mr. Ellerbee's submission.

SO ORDERED.
PAULC. JOHNSON, JR.
District Chief Administrative Law
Judge

PG, Jr./ksw
Newport News, Virginia

51

U.S. Department of Labor

Office of Administrative Law Judges
11870 Merchants Walk - Suite 204
Newport News, VA 23606

§
a

&
i

S

(757) 591-5140
(757) 591-5150 (FAX)

Issue Date: 26 April 2019
CASE NO.:

2019-STA-00011

In the Matter of:
JAM EL ELLERBEE,
Complainant,
v.
ANNETT HOLDINGS, INC.
d/b/a TMC
TRANSPORTATION,
Respondent.

ORDER DISMISSING COMPLAINT
This matter was filed under the employee-protection provisions of the Surface Transportation
Assistance Act, 49 U.S.C. § 31105 and the implementing regulations at 29 C.F.R.
Part 1978 ("STAA" or "the Act"). Complainant Jamel Ellerbee filed a complaint with the
Occupational Safety and Health Administration on November 15, 2018 and the complaint was
dismissed by the OSHA Regional Administrator on November 19,2018, on several grounds,
including (1) that Mr. Ellerbee is not an employee of TMC Transportation1; (2) that because Mr.
Ellerbee is not an employee, this matter is not covered under the STAA; (3) that the dispute
recounted by Mr. Ellerbee was between TMC and Ellerbee Transportation, Mr. Ellerbee's
employer, and therefore was a dispute between two companies rather than a dispute between
Mr. Ellerbee and his employer; and (4) Mr. Ellerbee characterized the issue as involving a
violation of the Bill of Lading Act, which is not protected by the STAA and therefore not within
the jurisdiction of the Department of Labor. Mr. Ellerbee objected to the OSHA determination
and requested a hearing before an administrative law judge. The case was docketed in this
Office on December 19, 2018 and was assigned to me on January 10,2019.

1 The Respondent in this matter is designated as “Annette Holdings d/b/a TMC Transportation.” Because the
entity is referred to as TMC throughout the voluminous documentation submitted by Complainant, I will use
that name in this Order.

52

Upon review of the materials forwarded by Mr. Ellerbee, it appeared that he is an employee of
Ellerbee Express, which contracted with TMC to haul a load for a customer. Specialty Rolled
Metals, picking it up on March 1,2018. The Ellerbee Express driver picked up the load and, after
starting to drive, was stopped by the police and fined for having an overweight load. In addition
to the fine, Ellerbee Express incurred costs in redistributing the load to comply with load limits,
which led to a bitter business dispute between Ellerbee Express and TMC. Given those
circumstances, I ordered Mr. Ellerbee to show cause why the complaint should not be dismissed
because (1) he did not engage in protected activity as defined in the STAA, (2) he is not an
"employee" as defined in the STAA, and/or (3) he did not suffer adverse employment action
because he engaged in protected activity.

Mr. Ellerbee filed a timely response to the order to show cause. Respondent, although given the
opportunity to reply to Mr. Ellerbee's filing, did not do so. As part of his response, Mr. Ellerbee
moved to add new complainants to this matter.

For the reasons discussed below, I find that Mr. Ellerbee is not an "employee" of TMC within
the meaning of the STAA, and the complaint must therefore be dismissed. Additionally, the
motion to add new complainants will be denied.

Facts
TMC Transportation is a transportation broker operating in interstate commerce. TMC entered
into a Broker-Carrier agreement with Ellerbee Express, effective February 22, 2018. That
agreement was intended to cover multiple shipments, including the shipment at issue in this
matter.

TMC contracted with Specialty Rolled Metals to transport a load of stainless steel from
Lawrenceville, Georgia to Fuquay-Varina, North Carolina. TMC engaged Ellerbee Express under
the Broker-Carrier agreement to provide a truck and driver pick up the load on March 1 and
deliver it on March 2, 2018.

On March 1, 2018, Ellerbee Express' driver, Dominic Cropper, picked up the load and began
transporting it to the delivery location. After driving about 130 miles, the truck was found to be
overweight when it was weighed at a highway weigh station: the load weighed about 57,000
pounds, and the truck was rated only for a load of 48,000 pounds. The state highway patrol
ticketed and fined the driver. The driver then stopped at a QT truck stop, rather than proceed
with the delivery, in order to avoid stopping at additional weigh stations. Complainant Jamel
Ellerbee, an employee of Ellerbee Express, began to make arrangements for a second truck and
a crane to travel to the truck stop, in order to move some of the load from the first truck to the
second so that the first truck would be in compliance with its weight limit. Mr. Ellerbee also
demanded that TMC pay Ellerbee Express triple the fine, costs associated with the second truck

53

and crane and a "detention fee." TMC refused to do so, and the parties attempted to negotiate
a resolution over the next few days. Ultimately, Mr. Ellerbee decided to deliver the load to a
warehouse in Goldsboro, North Carolina, and thereafter increased Ellerbee Express' demand to
TMC. Specialty Rolled Metals filed a police report with the Gwinnett County Police Department,
alleging that Ellerbee Express had stolen its property. However, in order to get its materials.
Specialty Rolled Metals ultimately agreed to pay the demand, and received the load on March 9,
2018. Specialty Rolled Metals advised the police on that day that the matter was a civil matter,
and the police were free to close their file.

Issues
1. Is Complainant an "employee" as defined in the STAA?
2. May the complaint be amended to add new complainants?

Discussion
A. Complainant is Not an Employee of TMC Under the STAA
The STAA provides:

(a) Prohibitions.—
(1) A person may not discharge an employee, or discipline or discriminate against
an employee regarding pay, terms, or privileges of employment, because—

(i) the employee, or another person at the employee's request,
(A)
has filed a complaint or begun a proceeding related to a violation of a commercial
motor vehicle safety or security regulation, standard, or order, or has testified or
will testify in such a proceeding; or
(ii) the person perceives that the employee has filed or is about
to file a complaint or has begun or is about to begin a proceeding
related to a violation of a commercial motor vehicle safety or security
regulation, standard, or order;
the employee refuses to operate a vehicle because—
the operation violates a regulation, standard, or order of
0)
the United States related to commercial motor vehicle safety, health, or
security; or
(ii)
the employee has a reasonable apprehension of serious
injury to the employee or the public because of the vehicle's hazardous
safety or security condition;
the employee accurately reports hours on duty pursuant to
(C)
chapter 315;

(B)

54

the employee cooperates, or the person perceives that the
employee is about to cooperate, with a safety or security investigation by the
Secretary of Transportation, the Secretary of Homeland Security, or the National
Transportation Safety Board; or
the employee furnishes, or the person perceives that the
(E)
employee is or is about to furnish, information to the Secretary of Transportation,
the Secretary of Homeland Security, the National Transportation Safety Board, or
any Federal, State, or local regulatory or law enforcement agency as to the facts
relating to any accident or incident resulting in injury or death to an individual or
damage to property occurring in connection with commercial motor vehicle
transportation.

(D)

49 U.S.C. § 31105; see 29 C.F.R. § 1978.102. The Act further provides:

In this section, "employee" means a driver of a commercial motor vehicle
(including an independent contractor when personally operating a commercial
motor vehicle), a mechanic, a freight handler, or an individual not an employer,
whodirectly affects commercial motor vehicle safety or security in the course of
employment by a commercial motor carrier; and
is not an employee of the United States Government, a State, or a political
(2)
subdivision of a State acting in the course of employment.

(1)

49 U.S.C. § 31105(j).

The initial complaint filed with OSHA was filed on behalf of Ellerbee Express, a limited liability
company established under North Carolina law. As set forth above, to be an "employee" under
the STAA, the complainant must be an individual. Business entities cannot recover for
discrimination under the Act.2 Thus, if Ellerbee Express is the proper complainant in this case,
the complaint must be dismissed. But that doesn't completely answer the mail: it may be that
Mr. Ellerbee filed the complaint on his own behalf, and much of his argument in response to my
order to show cause was intended to show that he personally is a proper complainant. However,
from the information before me, it appears that Mr. Ellerbee cannot be considered an employee
of TMC.

First, as Mr. Ellerbee admits, he is an employee3 of Ellerbee Express, and not of TMC or
Specialty Rolled Metals. Ellerbee Express contracted with TMC to carry Specialty Rolled Metals'

2 That is - presumably and correctly - why the report of investigation called this matter “company vs.
company” and therefore not within the coverage of the STAA.
3 The Secretary’s Findings issued on November 19,2018 are addressed to Mr. Ellerbee as “Owner”;
however, there is no other evidence in the file tending to show whether he was the owner of Ellerbee

55

load; Mr. Ellerbee personally was not a party to that contract. Thus, he is not an employee under
the definition of "employee" that includes an independent contractor, because he was not a
contractor at all. Furthermore, the independent contractor definition applies only to an
independent contractor "when personally operating a commercial motor vehicle"; however, Mr.
Ellerbee was not the operator of the truck that was involved in this incident, and was not
operating a commercial motor vehicle of any sort when he engaged in the purported protected
activity.

Second, Mr. Ellerbee contends that he is "an individual not an employer, who...directly
affects commercial motor vehicle safety or security in the course of employment by a
commercial motor carrier."4 In support of this argument, Mr. Ellerbee has submitted
documentation showing that Ellerbee Express is a commercial motor carrier, and that he is the
Designated Employer Representative (DER), responsible for ensuring compliance with the
Ellerbee Express drug and alcohol policy by its drivers. I accept, for the purposes of this Order,
that Mr. Ellerbee is an individual who affects commercial motor vehicle safety in the course of
his employment by a commercial motor carrier. However, it does not necessarily follow that he
is therefore an employee of TMC. His designation as DER is for Ellerbee Express, and not for
TMC. All of the actions he took were on behalf of Ellerbee Express, and not of TMC.

In Feltner v. Century Trucking, etal, ARB No. 03-118, ALJ Nos. 2003-STA-l and -2 (ARB
Oct. 27, 2004), the Administrative Review Board addressed a situation similar to this one. In
Feltner, the complainant was an independent contractor hired by Century Trucking to provide
services to Mainline Road and Bridge Construction, Inc. While accepting a load at Mainline's
facility, the complainant made remarks about being overloaded, and ultimately declined to
accept that load and another later in the day. Mainline requested Century not to send the
complainant back to its facility. The Board determined that under the facts of that case, Mainline
exercised sufficient control over the terms and conditions of the complainant's employment that
he could be considered an employee of Mainline. In this case, however, TMC exercised no
control over
Mr. Ellerbee's employment with Ellerbee Express. He continues to work for Ellerbee Express,
and has shown no effects on the pay, terms and privileges his own employment with Ellerbee
Express that are attributable to TMC.

Likewise, in Smith v. CRSTInt’l, Inc., ARB No. 11-086, AU No. 2006-STA-31 (ARB June 6,
2013), the complainant was a driver for Lake City Enterprises (LCE), which had a contract with
CRST International to provide trucking services. The complainant alleged that he was terminated
in violation of the STAA, and prevailed on that claim against LCE. The administrative law judge,

Express or an employee. His exact status with respect to Ellerbee Express, however, does not affect my
analysis of whether he is an employee of TMC.
4 Again, if the complaint was filed on behalf of Ellerbee Express, rather than Mr. Ellerbee, the entity is not
an individual, and is an employer, and is therefore not included in the definition of “employee.”

56

however, granted CRST's motion for summary decision that the complainant was not its
employee because it did not exercise control over the terms and conditions of his employment
with LCE. The exclusive agent agreement between LCE and CRST provided that:

...LCE was an independent contractor that solicited freight for CRST and had
"complete and sole responsibility" for hiring; setting wages, hours, and working
conditions; adjusting any grievances; and supervising, training, disciplining, and
firing all employees it deemed necessary to fulfill its duties and obligations
under the agreement. Such employees were "subject to the full control and
direction of
[LCE] at all times and at its own expense."

LCE's independent contractor operating agreement provided that LCE
would use its equipment and drivers to transport, load, and unload freight such
as steel coils and bars on CRST's behalf. LCE's drivers would submit to required
federal and state physical examinations and comply with CRST's drug and
alcohol policy, including random testing. Further, the agreement reiterated
LCE's "sole responsibility" for its employees and stated that "[n]o person [LCE]
may engage shall be considered [CRST's] employee."

Smith, slip op. at p. 3. The ARB determined that these provisions precluded a finding that the
complainant was an employee of CRST.

The Broker-Carrier agreement between TMC and Ellerbee Express similarly provided:

1.3 Relationship of parties. Carrier understands and agrees that Carrier is an
independent contractor of Broker and that Carrier has exclusive control and
direction of the work Carrier [performs] pursuant to this Agreement. Carrier
assumes full responsibility of payment for federal, state and local taxes or
contributions for unemployment insurance, pensions, workers' compensation
or other social security and related protections with respect to the persons
engaged by Carrier for Carrier's performance of the transportation and related
services for Broker or Shipper, and Carrier agrees to indemnify, defend and hold
Broker and Shipper harmless therefrom. Under no circumstances shall Carrier,
employees or agents of Carrier be deemed employees or agents of Broker or
Shipper, nor shall Broker or Shipper be liable for any wages, fees, payroll taxes,
assessments or other expenses relating to employees or agents of Carrier.

Based on (1) the express language of the Broker-Carrier agreement, and (2) the fact that TMC
made no effort to retaliate against Mr. Ellerbee personally, I am persuaded by the reasoning in
Feltner and Smith that Mr. Ellerbee is not an employee of TMC, and I so conclude.

57

B. The Complaint May Not Be Amended to Add New Complainants
As part of his submission, Mr. Ellerbee requested leave to amend the complaint to add
three drivers (James Ellerbee, Lorianne Ellerbee, and Dominic Cropper) employed by Ellerbee
Express as complainants, and to add Specialty Rolled Metals as a respondent. That request will
be denied.

This matter was forwarded to the Office of Administrative Law Judges by the OSHA
Regional Supervisory Investigator, who identified the complainant as Ellerbee Express, LLC/Jamal
Ellerbee and the respondent as Annett Holdings, d/b/a/ TMC Transportation. There is no
evidence that any of the three drivers, or Specialty Rolled Metals, filed or responded to any
complaints under the STAAforthe events of March 1-9, 2018. None of them participated as
parties in the investigative process.

In Wilson v. Bolin Associates, Inc., 91-STA-4 (Sec'y Dec. 30,1991), the Secretary of Labor
agreed with the administrative law judge's decision to allow the Complainant to amend his claim
to add an individual as a party when the individual was reasonably within the scope of the
original complaint, received notice from the outset of the case, and participated in the
investigation and all proceedings. That isn't the case here. Although Specialty Rolled Metals and
the three additional drivers likely knew of the incident giving rise to the pending complaint,
there is no indication that they knew of the complaint filed by Mr. Ellerbee with OSHA, or
participated in the OSHA investigation as parties.

Additionally, to allow the drivers to participate in this case as parties would be to
circumvent the requirement that any victim of discrimination under the STAA file a complaint
with OSHA under 49 U.S.C. § 31105. They didn't, and their failure to do so will not be excused by
allowing them to come into the case after completion of the investigation and referral to the
Office of Administrative Law Judges.

Although 29 C.F.R. § 18.36 provides that an administrative law judge may allow parties
to amend their filings, that rule does not require that the judge do so. Because (1) the drivers did
not file complaints with OSHA, and (2) neither the drivers nor Specialty Rolled Metals
participated in the investigative proceedings before OSHA, the motion to add them as parties
will be denied.

ORDER
Based on the foregoing, IT IS ORDERED:

1. Complainant's request to add parties is DENIED; and

58

2. The complaint in this matter is DISMISSED.

SO ORDERED.

PAULC. JOHNSON, JR.
District Chief Administrative Law Judge
PG, Jr./ksw
Newport News, Virginia

NOTICE OF APPEAL RIGHTS: To appeal, you must file a Petition for Review ("Petition")
with the Administrative Review Board ("Board") within fourteen (14) days of the date of
issuance of the administrative law judge's decision. The Board's address is: Administrative
Review Board, U.S. Department of Labor, Suite S-5220, 200 Constitution Avenue, NW,
Washington DC 20210, for traditional paper filing. Alternatively, the Board offers an Electronic
File and Service Request (EFSR) system. The EFSR for electronic filing (eFile) permits the
submission of forms and documents to the Board through the Internet instead of using postal
mail and fax. The EFSR portal allows parties to file new appeals electronically, receive electronic
service of Board issuances, file briefs and motions electronically, and check the status of existing
appeals via a web-based interface accessible 24 hours every day. No paper copies need be filed.

An e-Filer must register as a user, by filing an online registration form. To register, the e-Filer
must have a valid e-mail address. The Board must validate the e-Filer before he or she may file
any e-Filed document. After the Board has accepted an e-Filing, it is handled just as it would be
had it been filed in a more traditional manner. e-Filers will also have access to electronic service
(eService), which is simply a way to receive documents, issued by the Board, through the
Internet instead of mailing paper notices/documents.

Information regarding registration for access to the EFSR system, as well as a step by step user
guide and FAQs can be found at: https://dol-appeals.entellitrak.com. If you have any questions
or comments, please contact: Boards-EFSR-Help@dol.gov

Your Petition is considered filed on the date of its postmark, facsimile transmittal, or e-filing; but
if you file it in person, by hand-delivery or other means, it is filed when the Board receives it. See

59

29 C.F.R. § 1978.110(a). Your Petition must specifically identify the findings, conclusions or
orders to which you object. You may be found to have waived any objections you do not raise
specifically. See 29 C.F.R. § 1978.110(a).

At the time you file the Petition with the Board, you must serve it on all parties as well as the
Chief Administrative Law Judge, U.S. Department of Labor, Office of Administrative Law Judges,
800 K Street, NW, Washington, DC 20001-8002. You must also serve the Assistant Secretary,
Occupational Safety and Health Administration and, in cases in which the Assistant Secretary is a
party, on the Associate Solicitor for Occupational Safety and Health. See 29 C.F.R. § 1978.110(a).

If filing paper copies, you must file an original and four copies of the petition for review with the
Board, together with one copy of this decision. In addition, within 30 calendar days of filing the
petition for review you must file with the Board an original and four copies of a supporting legal
brief of points and authorities, not to exceed thirty double-spaced typed pages, and you may file
an appendix (one copy only) consisting of relevant excerpts of the record of the proceedings
from which the appeal is taken, upon which you rely in support of your petition for review. If
you e-File your petition and opening brief, only one copy need be uploaded.

Any response in opposition to a petition for review must be filed with the Board within 30
calendar days from the date of filing of the petitioning party's supporting legal brief of points
and authorities. The response in opposition to the petition for review must include an original
and four copies of the responding party's legal brief of points and authorities in opposition to
the petition, not to exceed thirty double-spaced typed pages, and may include an appendix (one
copy only) consisting of relevant excerpts of the record of the proceedings from which appeal
has been taken, upon which the responding party relies. If you e-File your responsive brief, only
one copy need be uploaded.

Upon receipt of a legal brief filed in opposition to a petition for review, the petitioning party
may file a reply brief (original and four copies), not to exceed ten double-spaced typed pages,
within such time period as may be ordered by the Board. If you e-File your reply brief, only one
copy need be uploaded.

If no Petition is timely filed, the administrative law judge's decision becomes the final order of
the Secretary of Labor pursuant to 29 C.F.R. §§ 1978.109(e) and 1978.110(b). Even if a Petition is
timely filed, the administrative law judge's decision becomes the final order of the Secretary of
Labor unless the Board issues an order within thirty (30) days of the date the Petition is filed
notifying the parties that it has accepted the case for review. See 29 C.F.R. § 1978.110(b).

60

U.S. Department of Labor

Administrative Review Board

200 Constitution Avenue, N.W
Washington, D.C. 20210
IN THE MATTER OF:
JAM EL ELLERBEE,

ARB CASE NO. 2019-0059

COMPLAINANT,

AU CASE NO.

2019-STA-00011

DATE:

1
ANNETT HOLDINGS, INC.
d/b/a TMC TRANSPORTATION,

RESPONDENT.

ORDER TO SHOW CAUSE
On May 20, 2019, Jamel Ellerbee, the Complainant in this matter, filed a Petition for Review
and Brief requesting the Administrative Review Board (Board) to review the Order Dismissing
Complaint issued April 26, 2019. The Secretary of Labor has delegated authority to the Board to
consider such petitions under the employee protection provisions of the Surface Transportation Act.

The Petition must be served on all parties. Complainant did not
include a Certificate of Service showing that the opposing party has
been served with the Petition for Review and brief. As such,
Complainant must provide a copy of all documents filed with the
Board to the Respondent and its Counsel.
A petition must also be filed within 14 days of the date of the decision of the Administrative
Law Judge (AU). The date of the postmark, facsimile transmittal, or electronic communication
transmittal will be considered to be the date of filing; if the petition is filed in person by handdelivery or other means, the petition is considered filed upon receipt. In this matter, the
Complainant apparently filed his petition on May 20, 2019—more than fourteen (14) days after the
AU issued the Order dismissing the complaint. Accordingly, there is a question regarding the
timeliness of the Complainant's petition for review.

61

i Secretary's Order 01-2019 (Delegation of Authority and Assignment of
Responsibility to the Administrative Review Board), 84 Fed. Reg. 13072 (April 3,
2019).

Nevertheless, the period authorized for filing a petition for review with the Board is not
jurisdictional and is subject to modification.5 There are three principal situations in which such
modification may apply: (1) when the opposing party has actively misled the petitioner regarding a
material matter that led to the delay; (2) when the petitioner has, in some extraordinary way, been
prevented from filing the appeal; (3) when the petitioner has filed a timely petition for review but has
done so in the wrong forum.6 But the Board has not found these situations to be exclusive, and an
inability to satisfy one is not necessarily fatal to the complaint.4
The petitioner bears the burden of justifying the application of these tolling principles.7
Accordingly, we order the Complainant to SHOW CAUSE, within fourteen (14) days of the date of
this order, why the petition should not be dismissed as untimely. If the Complainant fails to timely
respond to this Order, the Board may dismiss his appeal without further notice. The Respondent may
file a response to the Complainant's petition within fourteen days (14) days of the date on which the
Complainant files his response. The determination as to whether the Board will accept this appeal
(and any consequent briefing) will be stayed pending disposition of the Order to Show Cause.

FOR THE ADMINISTRATIVE REVIEW BOARD:

William T. Barto
Chief Administrative Appeals Judge
Note: Questions regarding any case pending before the Board should be directed to the Board's staff:
Telephone: (202) 693-6200, Facsimile: (202) 693-6220 ADMINISTRATIVE REVIEW BOARD

5 Accord Hillis v, Knochel Bros., ARB Nos. 03-136,04-081, 04-148; ALA No. 2002-STA050, slip op.
at 3 (ARB Oct. 19,2004); Overall v. Tennessee Valley Auth. , ARB No. 98-011, ALJ No. 1997-ERA053, slip op. at 40-43 (ARB Apr. 30.2001).

4

6 See Selig v. Aurora Flight Sciences, ARB No. 10-072, ALJ No. 2010-AIR-OIO, slip op. at 3 (ARB
Jan. 28,2011).

Id. at 4.
7 Accord Wilson v. Sec'y, Dep't of Veterans Affairs, 65 F.3d 402,404 (5th Cir. 1995) (complaining party
in Title vi I case bears burden of establishing entitlement to equitable tolling).

62

U.S. Department of Labor

Administrative Review Board
200 Constitution Avenue, N.W.
Washington, D.C. 20210

IN THE MATTER OF:
JAMEL ELLERBEE,

ARB CASE NO. 2019-0059

COMPLAINANT,

AU CASE NO.

2019-STA-00011

DATE:

JUL 3,2019
ANNETT HOLDINGS, INC.
dib/a TMC TRANSPORTATION,

RESPONDENT.
ORDER DISMISSING PETITION FOR REVIEW
On May 21, 2019, the Administrative Review Board (Board) issued an Order to Show Cause
in this case requiring Complainant to explain why his petition for review should not be dismissed as
untimely filed. On May 24,2019, the Board received Complainant's response, in which he describes
delays in reviewing his mail, 'problemsfiling his petition online, and the difficulties inherent in being
a seif-represented litigant while employed full-time. Complainant makes no assertion that
Respondent or any other person prevented his timely filing or that
Complainant had misfiled the petition with another agency. The matters raised by Complainant are
not extraordinary and are similar to those which confront any self represented individual attempting
to file a petition with this Board. Accordingly, the Board declines to apply equitable tolling to extend
the filing deadline in this matter, and Complainant's petition for review is hereby DISMISSED as
untimely.

In this regard, Complainant asserts that the Decision and Order issued by the AU
was not received by him until May 6, 2019. His petition for review was due four days
later on May 10, 2019, which was 14 days after the date of the decision by the
Administrative Law Judge. See 29 C.F.R. S 1978.110(a). Although not applicable to
the instant facts, the Federal Rules of Appellate Procedure (FRAP) provide that three
days are added to filing deadlines unless service of the document triggering the filing
deadline was effected on the same day as stated in the proof of service; this could
i

63

have extended Complainant's filing deadline to May 13, 2019, had the facts favored
Complainant and the Board elected to apply the FRAP standard to this matter. All
that being noted, Complainant did not file his petition until May 20, 2019.
2
The decision and order of the Administrative Law Judge below, dated April 26,2019, is the final
order of the Secretary of Labor.
FOR THE ADMINISTRATIVE REVIEW BOARD:

13^-fe
William T. Barto
Chief Administrative Appeals Judge
Note: Questions regarding any case pending before the Board should be directed to the Board's staff.
Telephone: (202) 693-6200, Facsimile: (202) 693-62'20

64

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-1795

JAMEL ELLERBEE,
Petitioner,
v.
ANNETT HOLDINGS, INC., d/b/a TMC Transportation; UNITED STATES DEPARTMENT OF
LABOR,
Respondents.

On Petition for Review of an Order of the Department of Labor. (2019-0059; 2019STA00011)

Submitted: December 17,2019

Decided: December 19, 2019

Before KING, FLOYD, and HARRIS, Circuit Judges.

Petition denied by unpublished per curiam opinion.

Jamel Ellerbee, Appellant Pro Se. Alyssa C. George, UNITED STATES DEPARTMENT OF
LABOR, Washington, D.C.; Matthew Christopher Burke, Dana Hefter Hoffman, YOUNG
MOORE & HENDERSON, pa, Raleigh, North Carolina, for Appellees.

Unpublished opinions are not binding precedent in this circuit.

65

PER CURIAM:
Jamel Ellerbee petitions for review of an order of the Department of Labor's (DOL)
Administrative Review Board (ARB) dismissing as untimely his petition for review of the
Administrate Law Judge's (AU) decision dismissing his complaint alleging violations of the
Surface Transportation Assistance Act of 1982 (STAA), see 49 U.S.C. § 31105 (2012). initially,
Ellerbee has forfeited our review of the ARB's determination that his petition for review of
the AU's decision was untimely. See Jackson v. Lightsey, 775 F.3d 170,177 (4th Cir. 2014)
("The informal brief is an important document; under Fourth Circuit rules, our review is
limited to issues preserved in that brief); United States v. Copeland, 707 F.3d 522,530 (4th
Cir. 2013) (recognizing that this Court generally does not consider arguments newly raised in
reply). And, because Ellerbee failed to timely petition the ARB for review, we lack authority
to exercise judicial review over the AU's decision. See 49 U.S.C. § 31105(d) (requiring STAA
judicial review to conform with Administrative Procedure Act (APA)); 29 C.F.R. §§

1978.109(e), 1978.110(a), (b) (2019); see also Darby v. Cisneros, 509 U.S. 137,147,152-53
(1993) (recognizing circumstances under which regulation may establish intra-agency appeal
as prerequisite to judicial review under APA).
Accordingly, we deny the petition for review. We grant Ellerbee's motions to
submit on the briefs and to amend the record. We dispense with oral argument because
the facts and legal contentions are adequately presented in the materials before this court
and argument would not aid the decisional process.

PETITION DENIED

66

FILED: February 18, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-1795
(2019-0059)
(2019-STA-00011)

JAMEL ELLERBEE
Petitioner
v.
ANNETT HOLDINGS, INC., d/b/a TMC Transportation; UNITED
STATES DEPARTMENT OF LABOR
Respondents

ORDER
The court denies the petition for rehearing and rehearing en banc. No
judge requested a poll under Fed. R. App. P. 35 on the petition for
rehearing en banc.

Entered at the direction of the panel: Judge King,

Judge Floyd, and Judge Harris.
For the Court
/s/ Patricia S. Connor, Clerk

67

Additional material
from this filing is
available in the
Clerk's Office.

